                             OFFICE OF THE INSPECTOR GENERAL
                             CORPORATION FOR NATIONAL AND
                                   COMMUNITY SERVICE




                                  PRE-AUDIT SURVEY OF THE
                                NEW MEXICO COMMISSION FOR
                                 COMMUNITY VOLUNTEERISM

                                   OIG Audit Report Number 00-34
                                          January 5,2000




                                              Prepared by:

                                            KPMG LLP
                                         2001 M Street N.W.
                                        Washington, DC 20036

                                Under CNS OIG MOU # 98-046-5003
                                   With the Department of Labor
                                   DOL Contract # 5-9-G-8-0022
                                        Task # B9G9V104




This report was issued to Corporation management on July 26, 2000. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than January 22, 2001, and complete its corrective actions by July 26, 2001.
Consequently, the reported findings do not necessarily represent the fmal resolution of the issues presented.
                                                                                                    CORPORATION
                                     Office of Inspector General                                    F O R NATIONAL,
                           Corporation for National and Community Service

                                     Pre-Audit Survey of the
                        New Mexico Commission for Community Volunteerism
                                 OIG Audit Report Number 00-34


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit entities,
tribes and territories to assist in the creation of full and part time national and community service programs.
Currently, in accordance with the requirements of the Act, the Corporation awards approximately two-thirds
of its AmeriCorps Staternational funds to state commissions. The state commissions in turn fund, and are
responsible for the oversight of, subgrantees who execute the programs. Through these subgrantees,
AmeriCorps Members perform service to meet educational, human, environmental, and public safety needs
throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and expenditures.
The Corporation has indicated that it intends to give them greater responsibility. However, the Corporation
lacks a management information system that maintains comprehensive information on its grants including
those to state commissions and subgrantees. Moreover, although the Corporation began state commission
administrative reviews in 1999, the Corporation, historically, has not carried out a comprehensive, risk-based
program for grantee financial and programmatic oversight and monitoring. In most cases, AmeriCorps
programs are subject to compliance testing as part of state-wide audits under the Single Audit Act due to
their size relative to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on the
state commissions' operations and funding. The surveys are designed to provide a preliminary assessment
of the commissions7 pre-award and grant selection procedures, fiscal administration, monitoring of
subgrantees (including ArneriCorps Member activities and service hour reporting), and the use of training
and technical assistance funds. For each survey, we issue a report to the state commission and to the
Corporation communicating the results and making recommendations for improvement, as appropriate.

 We engaged KPMG LLP to perform the pre-audit survey of the New Mexico Commission for Community
 Volunteerism. Based on the procedures performed, KPMG concluded that the Commission has established
 an open competitive process for grant award and effective controls over training and technical assistance.
 KPMG also indicates that the Commission has established control policies and procedures for jscal
 administration and subgrantee monitoring. However, their report includesjkdings and recommendations
for improvement that are related to the Commission's grant award, fiscal administration and monitoring
process. KPMG also reports that the Commission was tested as a major program during the audit of the
 State of New Mexico's June 30, 1998 state-widejkancial audit performed under the requirements of OMB
 Circular A-133 and that the Commission's subgrantees are routinely subject to Circular A-133 audits.
 Therefore, considering the survey results, the existing audit coverage and the relatively low level of CNS
funding, KPMG recommends that OIG limit the scope of.futut-efinancial audit work at the New Mexico
 Commission.


                                                                                               Inspector General
                                                                                               1201 New York Avenue, NW
                                                                                               Washington, I)C 20.525
We have reviewed the report and work papers supporting its conclusions, and we agree with the findings and
recommendations presented.

We provided a draft of this report to the New Mexico Commission and to the Corporation for comment. The
New Mexico Commission's response (Appendix C) cites corrective actions in response to KPMG's findings
and pledges to cooperate fully with future OIG requests for information.

The Corporation's response (Appendix D) indicates that the Corporation plans to request semi-annual reports
from the Commission on its actions to correct the conditions reported, cites the Corporation's administrative
review process (although not when the New Mexico Commission would be covered by such a review), and
proposes a plan for closing out this report. The response also appears to argue against further CNS OIG audit
work.

It is important to clarify that CNS OIG intends to perform audit work at most, if not all, of the state
commissions over the next several years. The purpose of the pre-audit surveys is to gather information to
allow CNS OIG to determine the timing of and the extent of the future audit work.

The timing and the scope of OIG's future audit work at the New Mexico Commission for Community
Volunteerism will be based on the conditions and other information reported herein. We will also consider
the Commission's corrective actions and the Corporation's oversight efforts. In accordance with our policies
and the requirements of OMB Circular A-133, we will coordinate with, and build on the work of, the New
Mexico State Auditor's Office.
                                     Pre-Audit Survey of the
                        New Mexico Commission for Community Volunteerism
                                        Table of Contents



RESULTS IN BRIEF ................................................................................................................ 1

BACKGROUND........................................................................................................................2

OVERVIEW OF THE NEW MEXICO COMMISSION ................................................................3

OBJECTIVES. SCOPE. AND METHODOLOGY ......................................................................3

FINDINGS AND RECOMMENDATIONS ...................................................................................5

APPENDIX A. COMMISSION FUNDING: 1996-97 THROUGH 1998-99..............................A .1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ............................................................................................................B . 1

APPENDIX C. NEW MEXICO COMMISSION FOR COMMUNITY
   VOLUNTEERISM RESPONSE ......................................................................................... C.1

                    .
APPENDIX D CORPORATION RESPONSE ........................................................................D .1
             2001 M Street, N.W.
             Washington, DC 20036




January 5,2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a pre-audit survey of the New Mexico Commission for
Community Volunteerism (Commission). The primary purpose of this survey was to provide a
preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission;
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees. However, we identified an area for improvement related to the lack of signed
    conflict of interest statements on file for all of its Commissioners.

    The Commission has developed control policies and procedures to administer the
    Corporation's grant funds. However, for the two subgrantees tested in years prior to program
    year 1997-98, we could not determine if Financial Status Reports were reviewed for accuracy
    and validity and if procedures were in place to ensure that matching requirements were met.

    The Commission has established controls to evaluate and monitor subgrantees. However, the
    Commission's monitoring records are incomplete for program years prior to 1997-98.

    The Commission has adequate controls in place to provide reasonable assurance that training
    and technical assistance is made available and provided to subgrantees.




1111             K P M G LLP K P M G LLP a U S h t e d I~ab~hty
                                                             partnership s
                 a member of K P M G International a SWISS aSSoClatOn
The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

Based on our preliminary assessments and the relatively low level of funding the Commission
receives annually from the Corporation, we recommend the performance of limited audit
procedures to address the issues identified herein at the Commission for program years 1995-96
through 1998-99. The Commission's ArneriCorps grant was tested as a major program under
Office of Management and Budget (OMB) Circular A-133 for the year ended June 30, 1998, and
no material internal control or compliance issues were noted. In addition, the Commission's
subgrantees are routinely subject to OMB Circular A-133 audits.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.
Overview of the New Mexico Commission

The Commission, located in Albuquerque, New Mexico has received AmeriCorps grant funds
from the Corporation for National and Community Service since program year 1994-95. It
currently operates as part of the State of New Mexico's Children's Youth and Families
Department, but was formerly a part of the State of New Mexico's Governor's Office. The
Commission currently has three part-time staff consisting of an Executive Director, Program
Officer, and Administrative Assistant.

As part of an agency of the State of New Mexico, the Commission is annually subject to an
Office of Management and Budget (OMB) Circular A-133 audit performed by the New Mexico
State Auditors' Office. The Commission's ArneriCorps grant was tested as a major program
under OMB Circular A-133 as part of the audits of the Children, Youth and Families Department
(CYFD) for the year ended June 30, 1998; no material internal control or compliance findings
related to the Commission or the AmeriCorps grants were noted. Additionally, each of the
Commission's subgrantees has received annual audits conducted in accordance with OMB
Circular A- 133.

The Commission provided us with the following information for the last three program years:

                                                                     Number of Sub-
                                                                    grantees Subject to
                             Total Corporation     Number of           A-133 Audit
        Promam Year              Funding           Submantees         Requirements*




* Determination is based on review of the subgrantee audit reports on file with the
    Commission.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1996-97 through 1998-99.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission;
    the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
    Member activities and service hours; and
    the controls over the provision of technical assistance.
We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

   reviewing applicable laws, regulations, grant provisions, the Corporation's A Reference
   Manual for Commission Executive Directors and Members, and other information to gain an
   understanding of legal, statutory and programmatic requirements;

   reviewing OMB Circular A-133 reports and current program year grant agreements for the
   Commission:

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1996-97, 1997-98 and 1998-
    99; and

    performing the procedures detailed in Appendix B over the Commission's internal controls,
    selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
    and the technical assistance process.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on February 2 1,2000.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Commission and the Corporation. The Commission's
and the Corporation's responses to our findings and recommendations are included as Appendix
C and Appendix D, respectively.
Findings and Recommendations

Selecting Subgrantees

According to A Reference Manual for Commission Executive Directors and Members, section
3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
selecting applicants for potential funding."

The Commission administers an open, competitive process to select national service subgrantees.
Funding availability is advertised in newspapers and through mailing lists. The annual request
for proposal requires applicants to describe their financial management systems. Selection
officials receive conflict of interest training when the selection process instructions are provided,
and use a standard form to evaluate each applicant. However, we identified the following area
for improvement within the selection process.

        Missing Conflict of Interest Statements on File

According to A Reference Manual for Commission Executive Directors and Members, section
3.6, "State Commissions should strive to achieve the greatest objectivity and impartiality
possible in the review and selection of grantees in the state.. .Any time a voting Commission
member is not, or does not appear to be, for any reason, impartial to a program that is applying to
the Commission for funding, the member has a conflict of interest." One way to help ensure this
objectivity is to require selection officials (i.e., Commission members and proposal reviewers) to
annually certify in writing that they have no conflicts of interest.

Commission staff distribute relevant conflict of interest guidance to selection officials, and the
Commission has policies and procedures that require these officials to sign conflict of interest
statements certifying that they have no conflicts. However, Commission personnel do not always
review Commission files to ensure that all signed conflict of interest statements have been
received. If selection officials have conflicts of interest but do not report them, the fairness of
the selection process may be impaired.

        Recommendation

We recommend that Commission personnel enforce existing policies which require the
submission of signed conflict of interest statements from all selection officials. A review of
Commission files prior to the commencement of selection procedures should be performed to
ensure no exceptions to the policy occur.

Administering Grant Funds

As part of the grant administration process, Commissions must retain staff with appropriate skills
and experience to manage their own organization and their subgrantees; implement policies and
systems that ensure accountability; and maintain appropriate financial management systems to
disburse funds and track Commission and program expenses according to legal and grant
requirements. (A Reference Manual for Commission Executive Directors and Members, Sections
3.2 and 4.2).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly administered.
Procedures are in place to withhold funding payments if subgrantees do not submit Financial
Status Reports (FSRs) timely; to manage cash draw downs and disbursements to subgrantees on a
reimbursement basis; and to ascertain whether subgrantees have met their matching
requirements. The Commission's personnel have adequate skills and experience to manage and
administer Corporation grant funds. However, we identified the following areas for
improvement within the administering process.

       Lack of Documentation Supporting FSR and Matching Requirements Review Prior to
       Program Year 1997-98

The current executive director and program officer began work at the Commission in April 1997;
their first full program year with the Commission was 1997-98. For the two subgrantees tested in
years prior to program year 1997-98, the Commission could not provide evidence that FSRs had
been reviewed for accuracy and validity and that matching requirements had been reviewed for
compliance. However, we noted no similar documentation problems for the six subgrantees
tested in program years 1997-98 and 1998-99. Therefore, no recommendation is required at this
time related to the review of FSRs and matching requirements.

        Timeliness of Receipt of FSRs

The Commission does not date-stamp FSRs from subgrantees as they are received. The only
evidence of when they were submitted is the date associated with the Program Director's
signature. Therefore, the Commission can not routinely verify if these documents are submitted
timely in compliance with the grant agreement. As a result, subgrantee FSRs may be submitted
late, creating difficulty for the Commission when attempting to prepare and submit its FSRs to
the Corporation on a timely basis.

In program year 1999-2000, the Commission began utilizing the Web Based Reporting System
which electronically records the date subgrantees submit their FSRs to the Commission. As a
result, no recommendation is required at this time related to date stamping of FSRs.

        Errors in FSRs for Program Years 1994-95 through 1996-97

In completing the hierarchy flowcharts, we noted the following two conditions:

    One 1996-97 program year FSR indicated total funds available under the grant of $267,973;
    a difference of $695 from the amount included on the award letter of $267,278.
    The federal share of administrative funds expended in program years 1994-95 through 1996-
    97 was misstated on the FSRs submitted to the Corporation. During the first two program
    years noted, the federal share was overstated because the amount provided on the federal
    share line of the FSRs reported all program expenditures (i.e., was not properly reduced by
    those expenditures funded by the state match). During program year 1996-97, the federal
    share was understated because the Commission corrected the cumulative FSRs for the
    overstatement errors found in the earlier years.

Because these errors occurred prior to the tenure of the existing Commission staff, the cause
could not be determined, beyond simple error or lack of appropriate oversight. No similar errors
were noted in program years 1997-98 and 1998-99. Therefore, no recommendation is required at
this time related to the accuracy of FSRs.
Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for evaluating whether subgrantees comply with
legal, reporting, financial management and grant requirements and ensuring follow through on
issues of noncompliance. The Commission has established controls to evaluate and monitor
subgrantees, which include reviewing program and financial reports and performing three site
visits for each subgrantee during the 15-month grant period. Reviewers use a standard checklist
to perform the site visits. Commission personnel are required to notify the subgrantees of the
results of these site visits, including strengths, weaknesses, concerns, recommendations, and any
necessary follow-up requirements. Additionally, the CYFD's Grants Management Bureau
routinely obtains and reviews OMB Circular A-133 audit reports for all CYFD subgrantees, and
reports all AmeriCorps-related findings to the Commission.

We identified the following finding related to the evaluation and monitoring of subgrantees.

        Lack of Documentation Related to Site Visits Prior to Program Year 1997-98

As noted above, program year 1997-98 was the first full program year that the current executive
director and program officer worked at the Commission. For the two subgrantees tested in years
prior to program year 1997-98, the Commission could not provide evidence that the Commission
performed site visits, followed-up on deficiencies noted, or performed procedures to ensure
Members were not performing prohibited activities. However, we noted no similar
documentation problems for the six subgrantees tested in program years 1997-98 and 1998-99.
Therefore, no recommendation is required at this time related to site visit documentation.

Providing Technical Assistance

The Commission has adequate controls in place to provide reasonable assurance that training and
technical assistance is made available and provided to subgrantees. Procedures are in place at
the Commission to (1) identify training and technical assistance needs of subgrantees through
site visits, training evaluation forms and quarterly progress reports; (2) notify subgrantees of
training programs; and (3) provide needed training to subgrantees. We identified no significant
areas for improvement within this process.




This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
New Mexico Commission for Community Volunteerism, and the United States Congress and is
not intended to be and should not be used by anyone other than these specified parties.
                                 Commission Funding                             Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding over
the past three program years. We were unable to agree the funding amounts to the Commission's
FSRs for (a) 1998-99 because the final FSR for the program year had not been completed at the
time of field work and (b) previous program years because those FSRs had been prepared on a
cumulative, not program year, basis.


         Funding Source and Type                    1996-97           1997-98

         CNS Formula Grant Funds                   $ 581,935        $467,087

         CNS Competitive Grant Funds                256,007           468,200

         CNS PDAT Funds                               25,57 1         101,181

         CNS Administrative Funds                      5,979           49,062

         State Matching Funds                              *           49,062

           Total Funding                           $869.492        $1.134.592


*       Cannot determine. See finding on page 6.
                        Commission Funding                       Appendix A




         Corporation for National Service
                 Funding to the
New Mexico Commission for Community Volunteerism
                    1996-1997




L
Formula        Competitive   Learn and               All Other
 Funds           Funds         Serve                  Funds
                              Funds
$581,935         $256,007                             $5,979



                                                     T
  Total Corporation Funds Available to the Commission
                       $869,492




                Funds Awarded to Subgrantees
                         $837,942




          Formula                          Competitive
        Subgrantees                        Subgrantees
         $581,935                            $256,007
      # of subgrantees                   # of subgrantees
                                                 1
           # of sites                        # of sites
                              Commission Funding                         Appendix A




              Corporation for National Service
                      Funding to the
     New Mexico Commission for Community Volunteerism
                        1997- 1998
I
        I                 I            I           I               I
    Formula          Competitive   Learn and    PDAT         All Other
     Funds             Funds         Serve      Funds         Funds
                                    Funds
    $467,087          $468,200        $0       $101,181       $49,062




       v                              v           v                v

      Total Corporation Funds Available to the Commission
                          $1,085,530


                                       .I
                      Funds Awarded to Subgrantees
                               $935,287


            A
                Formula
                                                        *
                                                  Competitive
              Subgrantees                         Subgrantees
                $467,087                            $468,200
            # of subgrantees                    # of subgrantees
                    3                                   2
                # of sites                          # of sites
                   20                                   17
                             Commission Funding                                Appendix A




             Corporation for National Service
                     Funding to the
    New Mexico Commission for Community Volunteerism
                        1998-1999
1                                                                          1
        I                   I            I          I                 I
    Formula         Competitive      Learn and   PDAT          All Other
     Funds            Funds            Serve     Funds          Funds
                                      Funds
    $373,360             $57 1,006      $0       $75,004       $47,463
               -
    -T
     +                     v            v           v             '
                                                                  I


      Total Corporation Funds Available to the Commission
                          $1,066,833




                     Funds Awarded to Subgrantees
                              $944,366



                                                           +
                                                     Competitive
          Subgrantees                                Subgrantees
            $373,360                                   $57 1,006
        # of subgrantees                           # of subgrantees
                                                           2
            # of sites                                 # of sites
                                                           19
                           Detailed Engagement Objectives
                                  and Methodology                                   Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: ( 1 ) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; matching; period of
availability of Corporation funds; procurement, suspension and debarment; subrecipient
monitoring; and reporting by the Commission to the Corporation. We then interviewed key
Commission personnel to assess the Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration and whether the
    Commission has a properly constituted membership;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

    make a preliminary assessment as to whether the Commission provided adequate guidance to
    subgrantees related to maintenance of financial systems, records, supporting documentation,
    and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, enrollment forms and exit forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We also
determined whether the Commission had implemented the Web Based Reporting System
(WBRS).

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B


In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to provide technical assistance to subgrantees and other entities in planning
    programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify training and technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also spoke with various sub-grantee representatives to assess the training
assistance made available to them.
                                                                             Appendix C




                           NEW MEXICO COMMISSION FOR COMMUNITY VOLUNTEERISM
                           3401 PAN AMERICAN FREEWAY NE
                           ALBUQUERQUE, NEW MEXICO 87107
                           (505) 841-4838 FAX (505) 841-4839




June 28, 2000


Luise S. Jordan, Inspector General
Office of the Inspector General
1201 New York Avenue, NW
Washington, DC 20525

Dear Ms. Jordan,

Enclosed is the response from the New Mexico Commission for Community Volunteerism to the
draft report on the pre-audit survey of the NM Commission as requested in your letter of May 3 1,
2000. Thank you for including our response in the report as an appendix.

Sincerely,

Gdi/bLhL        &&
                 J
Barbara Otto Dennis
Executive Director
                                                                              Appendix C




              New Mexico Commission for Community Volunteerism Response

Permitting this response to the pre-audit findings for the New Mexico Commission for
Community Volunteerism is appreciated. Overall, it appears that the areas noted as exceptions
in the pre-audit report appear to be items that have already been corrected through policy and
procedure development and implementation.

We are committed to making whatever changes you believe are necessary to enhance our
efficiency and accountability as the operators of the AmeriCorps program in New Mexico. For
example, we have already corrected the conflict of interest issue and now use the Web-Based
Reporting System to identi@ the exact date an FSR is received.

When it was discovered by KPMG auditors that there were Conflict of Interest forms for a few
Commissioners missing from our files, Commissioners signed new forms to replace the missing
ones within 36 hours of notification by auditors. The packets sent to Review Team members
contain Conflict of Interest forms which must be completed and given to Commission staff
before proposal review. Copies of the forms are kept in the files containing the scoring sheets
and proposal recommendations.

All Commissioners will complete new Conflict of Interest forms at the annual retreat. Those
Commissioners not attending will sign them and mail them to the Commission staff for the file in
the office. Newly appointed Commissioners receive them as part of the training packet sent to
them upon appointment by the Governor.

While some of the records from the nascent stages of this program may not be in accord with our
current practices, we believe that at every stage of the implementation of this program, funds
have been administered to contractors in good faith. The NM Commission makes every effort to
assure that the agencies awarded knds have systems in place to adequately administer the
program and expenditure of funds meeting all state and federal requirements. The State of New
Mexico Procurement Code, which governs our distribution of funds, has stricter requirements
than those of the Corporation for National Service.

The NM Commission will strive for continuous improvement in our systems to assure that
Corporation for National Service requirements are met in all areas of grant administration. Please
allow this letter to reconfirm our pledge to cooperate fully with all requirements of your review.
The NM Commission will be happy to facilitate any hture requests for information you may
have.
                                                    CORPORATION                                  Appendix D
                                                    FOR NATIONAL




       MEMORANDUM


       TO:                 Luise S. Jordan

      THRU:                Anthony Music

       FROM:
                           Bruce H. Cli

       DATE:               June 20,2000

       SUBJECT:            Response to the Draft Audit Report 00-34 Pre-Audit Survey of the New
                           Mexico Commission for Community Volunteerism


       We have reviewed OIG's draft audit report on the New Mexico State Commission. Your
       preliminary assessment of the Commission disclosed the following:

            The Commission administers an open, competitive process to select national service
            subgrantees.

            The Commission has developed control policies and procedures to administer the
            Corporation's grant funds.

             The Commission has established controls to evaluate and monitor subgrantees.

             The Commission has adequate controls in place to provide reasonable assurance that
             training and technical assistance is made available and provided to subgrantees.

             The Commission's ArneriCorps grant was tested as a major program under Office of
             Management and Budget (OMB) Circular A- 133 for the year ended June 30, 1998 by
             the New Mexico State Auditors' Office. This audit disclosed no material internal
             control or compliance issues.

             The Commission subgrantees are routinely subject to and have received annual audits
             in accordance with OMB Circular A-133.

       We are pleased that the Commission has established a control environment to effectively
       carry out its grant administration and oversight responsibilities. The report did point out
       two minor control issues:




                                                              D. 1
NATIONAL SERVICE: GElTlNG THINGS DONE
imeri~orps Learn and Sen~.imerica .~ationalSenior   :-tllpS   R      1201 New York Avenue, N.W. Washington, D.C. 20525
                                                                     te1ephor.t.: !02-606-5OOO website: www.nationalsenice.org
                                                                           Appendix D

      The Commission should obtain signed conflict of interest statements for all of its
      Commissioners.
      The Commission should obtain and review for accuracy two subgrantees' Financial
      Status Reports and all subgrantees' monitoring records for program years prior to
      1997-98.

As you are aware, the Corporation has developed a plan to assess State Commission
administration functions. Over a three-year period, we will be reviewing each of the
State Commissions. As part of the Corporation's review of the New Mexico
Commission, and consistent with Federal government-wide policy, the Corporation will
determine whether the Commission has put appropriate corrective actions in place for the
conditions noted in your report. In addition to this scheduled review, the Corporation
will request that the New Mexico Commission provide semi-annual reports on their
corrective actions.

However, the Corporation is concerned about the administrative burden that additional
OIG audits will place on the Commission's resources. The report includes a
recommendqtion to perform audit procedures at the New Mexico Commission for the
1995-96 through 1998-1999 period. Based on the New Mexico Commission audit
performed by the State Auditors' Office and the positive results in the draft OIG audit
report, the Corporation does not agree that additional audits of the Commission are
warranted at this time. Administratively, the Corporation can institute immediate
corrective actions to obtain the applicable documents and to require compliance with
other monitoring measures so noted in the survey. The Corporation could receive these
documents by a date certain and this audit could be closed after the Corporation has
satisfactorily reviewed the Commission's responses.

The OIG State Commission audits to date appear to be recommending additional work at
each State Commission regardless of the results and conditions found at the Commission.
Even though findings at the New Mexico Commission are minor administrative matters
and the Commission and its sub-grantees are routinely audited, OIG plans additional
audit work as at other State Commissions where similar audits have not already taken
place. The results of OIG's work at the New Mexico Commission do not seem to
warrant this additional audit effort.


cc:       Wendy Zenker
          Tony Musick
